Proskauer Rose LLP Eleven Times Square New York, NY 10036-8299

May 26, 2020
By eFile and Federal Express
Scott S. Harris
Clerk of Court
Supreme Court of the United States
One First Street, NE
Washington, DC 20543

Martin J. Bienenstock
Member of the Firm
d +1.212.969.4530
f 212.969.2900
mbienenstock@proskauer.com
www.proskauer.com

Re: Vázquez-Garced et al. v. Financial Oversight and Management Board for Puerto Rico
et al., No. 19-1305
Dear Mr. Harris:
On behalf of the Financial Oversight and Management Board for Puerto Rico and its
members (the “Board”), I am writing pursuant to Supreme Court Rule 30.4 to request a 30-day
extension of time for respondents to file a response to the petition for a writ of certiorari in the
above-captioned matter. The petition was docketed on May 20, 2020. Accordingly, the response
is currently due on June 19. The requested 30-day extension would extend the due date to July
20, 2020. Counsel for petitioners consents to the requested extension.
The Board was established by Congress to oversee the restructuring of Puerto Rico’s
massive public debt—the largest restructuring of public debt in American history. See 48 U.S.C.
§ 2121(b). At present, the Board is litigating numerous adversary proceedings within the
bankruptcy-like cases it has filed on behalf of the Commonwealth and its municipal entities.
Moreover, the Board is currently working with the Puerto Rico government on developing the
Commonwealth’s annual fiscal plan and budget and is embroiled in important litigation
involving revenue streams of three critical Commonwealth instrumentalities—tasks that have
been further complicated by the present public health crisis.
In light of the great number of matters the Board is handling, we respectfully submit that
the requested extension is necessary to allow us to respond properly to the petition.

Sincerely,

Martin J. Bienenstock
cc: William J. Sushon, Counsel of Record for Petitioner

Beijing | Boca Raton | Boston | Chicago | Hong Kong | London | Los Angeles | New Orleans | New York | Newark | Paris | São Paulo | Washington, DC

